Mr. Todd J. Zinser                                                                              2

application of the DOC OIG's policies and procedures on selected engagements. Our review
was based on selected tests; therefore, it would not necessarily detect all weaknesses in the
system of quality control or all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality control, and therefore
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation of a system of quality control to future periods is subject to the risk that the
system of quality control may become inadequate because of changes in conditions, or because
the degree of compliance with the policies or procedures may deteriorate.

Enclosed is a statement of scope and methodology that identifies the offices of the DOC OIG
that we visited and the engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of the DOC OIG in effect
for the year ended September 30, 2011, has been suitably designed and complied with to provide
the DOC OIG with reasonable assurance of performing and reporting in conformity with
applicable professional standards in all material respects. Federal audit organizations can receive
a rating of pass, pass with deficiencies, or fail. The DOC OIG has received a peer review rating
of pass.

As is customary, we have issued a letter dated July 13, 2012 that sets forth fmdings that were not
considered to be of sufficient significance to affect our opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with Government
Auditing Standards, we applied certain limited procedures in accordance with guidance
established by the CIGIE related to the DOC OIG's monitoring of engagements performed by
Independent Public Accountants (IPA) under contract where the IP A served as the principal
auditor. It should be noted that monitoring of engagements performed by IPAs is not an audit
and therefore is not subject to the requirements of Government Auditing Standards. The purpose
of our limited procedures was to determine whether the DOC OIG had controls to ensure IP As
performed contracted work in accordance with professional standards. However, our objective
was not to express an opinion and accordingly, we do not express an opinion, on the DOC OIG's
monitoring of work performed by IP As.


                                              Sincerely,

                                            c?J:4~~~
                                            Patrick E. McFarland - ~ -~--7
                                              Inspector General

Enclosure
                                                                                      Enclosure
                                                                                     Page 1 of2
                               SCOPE AND METHODOLOGY

Scope and Methodology

We tested compliance with the DOC OIG audit organization's system of quality control to the
extent we considered appropriate. These tests included a review of 7 of 30 audit and attestation
reports issued during the period October 1, 2010, through September 30, 2011, and semiannual
reporting periods ending March 31, 2011 and September 30, 2011. Included in this sample were
two reports on DOC 0 IG' s monitoring of engagements performed .bY IPAs where the IP A served·
as the principal auditor during the period October 1, 2010, through September 30,2011. During
the period, the DOC OIG contracted for the audit of its agency's Fiscal Year 2009 and 2010
financial statements. We also reviewed the internal quality control reviews performed by
Williams Adley, a certified public accounting and management consulting firm, which was
contracted by the DOC OIG to perform quality assurance services.

In discussions with DOC OIG leadership, we learned that DOC OIG had recently implemented
improved quality assurance controls. Therefore, we expanded our review to include two recently
completed reports in order to confirm that the controls were effective. We limited the scope of
these reviews to the areas where we found weaknesses in our original sample of reports. The
additional reports were selected from the semiannual reporting period ending March 31, 2012.

We conducted our review at the DOC OIG headquarters office in Washington, D.C.

Reviewed Engagements Performed by the DOC OIG

Report Number    Report Date     Report Title

OIG-11-033-A     9/29/2011       Patent End-to-End Planning and Oversight Need to Be
                                 Strengthened to Reduce Development Risk

OIG-11-021-A     3/25/2011       Commerce Needs to Strengthen Its Improper Payment
                                 Practices and Reporting

OIG-11-001-A     10/7/2010       Second Arumal Assessment of the Public Safety Interoperable
                                 Communications Grant Program

OIG-11-025-A     6110/2011       Indirect Cost Plans and Rates Pacific States Marine Fisheries
                                 Commission

OIG-11-026-A     6110/2011       NOAA Cooperative Agreements to the Pacific States Marine
                                 Fisheries Commission
                                                                                  Enclosure 

                                                                                 Page 2 of2 


Reviewed Monitoring Files of the DOC OIG for Contracted Engagements

 Report Nwnber    Report Date    Report Title

 OIG-11-010-FS    11112/2010     Department of Commerce's FY 2010
                                 Consolidated Financial Statements

OIG-11-011-FS      11115/2010    Department of Commerce's FY 2010 Special
                                 Purpose Financial Statements

Additional Reviewed Engagements Performed by the DOC OIG (Limited Scope)

Report Nwnber    Report Date    Report Title

OIG-12-018-A     2/112012       The Patent Hoteling Program Is Succeeding as a Business
                                Strategy

OIG-12-002-A     10/21/2011     Improvements Are Needed for Effective Web Security
                                Management
